   Office of Inspector General
        Audit Report


      FAA NEEDS TO STRENGTHEN ITS RISK
 ASSESSMENT AND OVERSIGHT APPROACH FOR
ORGANIZATION DESIGNATION AUTHORIZATION AND
 RISK-BASED RESOURCE TARGETING PROGRAMS

          Federal Aviation Administration

           Report Number: AV-2011-136
            Date Issued: June 29, 2011
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: FAA Needs To Strengthen Its                                           Date:    June 29, 2011
           Risk Assessment and Oversight Approach for
           Organization Designation Authorization and Risk-
           Based Resource Targeting Programs
           Federal Aviation Administration
           Report Number AV-2011-136

  From:    Jeffrey B. Guzzetti                                                             Reply to
                                                                                           Attn. of:   JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           The Federal Aviation Administration (FAA) is responsible for overseeing
           numerous aviation activities designed to ensure the safety of the flying public.
           Recognizing that it is not possible for FAA employees to personally oversee every
           facet of aviation, public law 1 allows FAA to delegate certain functions, such as
           approving new aircraft designs, to private individuals or organizations. Designees
           perform a substantial amount of critical work on FAA’s behalf—for example, at
           one aircraft manufacturer, they made about 90 percent of the regulatory
           compliance determinations for a new aircraft design.

           FAA created the Organization Designation Authorization (ODA) program in 2005
           to standardize its oversight of organizational designees. 2 ODA was fully
           implemented in November 2009 when FAA required all delegated organizations to
           transition to the new ODA policy. FAA also deployed its Risk Based Resource
           Targeting (RBRT) system in 2007 to assist FAA engineers in deciding which
           aircraft certification projects represent the highest risk and therefore need more
           FAA oversight.

           Representative Daniel Lipinski requested that we review these two aircraft
           certification initiatives. He expressed concern that ODA allows companies to

           1
               49 U.S.C. § 44702.
           2
               Organizational designees are companies (e.g., aircraft manufacturers) that FAA has approved to perform certain
               functions on its behalf, such as determining compliance with aircraft certification regulations. The organization is
               responsible for overseeing the employees who perform the delegated functions.
                                                                                                      2


choose individuals who perform work on behalf of FAA 3 with little or no FAA
oversight and that RBRT precludes certification engineers from reviewing projects
that are deemed low or medium risk. He was also concerned that these two
programs were not in compliance with current laws and regulations. 4
Accordingly, our audit objectives were to determine (1) the role FAA plays in the
selection process for individuals who perform work under the Agency’s ODA
program, (2) the adequacy of FAA’s oversight of the program, and (3) the
effectiveness of FAA’s RBRT program.

We conducted this review between August 2009 and May 2011 in accordance with
government auditing standards prescribed by the Comptroller General of the
United States. We visited aircraft manufacturers and FAA Aircraft Certification
Offices (ACO) 5 for both small and transport category airplanes. Due to the nature
of Representative Lipinski’s request, we focused on delegated organizations that
approve new aircraft designs (type certification) and changes to existing designs
(supplemental type certificates). An air transportation consultant assisted us in
assessing the effectiveness of ODA and RBRT. Exhibit A details our scope and
methodology. Exhibit B lists the entities we visited or contacted.

RESULTS IN BRIEF
Under the ODA program, FAA has significantly reduced its role in approving
individuals who perform work on FAA’s behalf by further delegating this
approval to private companies (e.g., aircraft manufacturers). Under previous
forms of organizational delegation, FAA approved each appointment of personnel
working for these companies. Now, once the Agency approves the company’s
selection process, ODA company representatives select these personnel, known as
unit members, without FAA concurrence.              While FAA maintains some
involvement with the selection process during an ODA holder’s first 2 years, it is
unclear how FAA will be involved beyond that timeframe. Because FAA has not
provided clear, written guidance on how to oversee unit member appointments,
there are inconsistencies in how ACOs interpret FAA’s role and track unit
members and in how manufacturers select those personnel. For example, only
three of the five ACOs we visited consulted an FAA database to pre-screen
prospective unit members’ performance histories, and FAA engineers in the field
expressed confusion about whether this check would continue beyond an ODA’s
first 2 years. With less FAA involvement in the selection process, there is also
potential risk that an ODA company could appoint unit members with inadequate
qualifications or a history of poor performance to approve certification projects.


3
    Under ODA, these individuals are known as unit members.
4
    Based on our review, we did not find any conflict with 49 U.S.C. § 44702 and 14 C.F.R. Part 21.
5
    FAA offices responsible for engineering oversight of aircraft manufacturers.
                                                                                                                    3


While the ODA program is relatively new, we identified potential vulnerabilities
in FAA’s oversight and training. Beyond the change in the unit member selection
process, FAA’s ODA oversight methods (e.g., initial project review, site visits,
and technical evaluations) are similar to those used for past forms of
organizational delegations. Therefore, FAA will likely face many of the same
challenges with ODA. Past FAA audits discovered “after the fact” that delegated
organizations had either neglected a critical rule or did not properly demonstrate
compliance, calling into question how adequately FAA reviews new engineering
project plans submitted by delegated organizations. For example, during initial
project review, an FAA engineer failed to detect that a manufacturer’s certification
plan did not demonstrate compliance with specific aviation regulations governing
design and construction of aircraft flight controls. Under ODA, FAA engineers
will also have expanded enforcement responsibilities, but the Agency has not
ensured that they are adequately trained to perform these duties. As a result, FAA
engineers may not detect and enforce all regulatory noncompliances.

Finally, RBRT has not been effective for measuring risk and directing FAA
engineers’ oversight efforts to high-risk projects because it relies on subjective
input from engineers, does not contain detailed data, and has experienced repeated
technical difficulties. Engineers reported numerous problems with the system,
including a tendency to identify projects as low risk regardless of inputs that
suggested higher risk factors, such as a lack of company experience with the
design. FAA removed RBRT from active use in August 2009 to undergo revisions
identified during its pilot phase. FAA plans to reintroduce RBRT in late fiscal
year (FY) 2011. In the interim, FAA engineers will continue to determine which
projects to review using subjective judgment.

We are making a series of recommendations to FAA to improve its oversight of
ODA programs and the RBRT system.

BACKGROUND
Historically, FAA has relied on a variety of organizational or individual designee
programs to meet its responsibility to hold the aviation industry accountable to its
safety standards. A designee can be a person or an organization who witnesses
inspections or tests on FAA's behalf. For example, one type of designee is known
as a Designated Engineering Representative (DER). 6 To gain FAA approval of a
new aircraft design, a manufacturer must demonstrate compliance to hundreds of
detailed Federal Aviation Regulations. FAA has the option to thoroughly examine
test data, accompanying analysis, and conclusions of DER approvals; spot check a
few calculations or data points; or simply accept the report at face value.

6
    DERs are non-FAA employees authorized to approve information related to aircraft structure, engines, power plants,
    propellers, flight characteristics, systems, and equipment on behalf of FAA.
                                                                                                                  4


Organization Designation Authorization: Since 1956, FAA has developed
various forms of organizational delegation to meet specific needs. In 2005, FAA
created the ODA program to consolidate these types of organizational delegations
under one program and standardize oversight. 7 By November 2009, all
67 companies that had applied for ODA had completed the transition as required
by FAA. As of November 2010, there were 84 authorizations at air carriers,
aircraft manufacturers, repair and maintenance facilities, and aircraft modification
companies. Figure 1 illustrates the development of organizational delegation.

                     Figure 1. Development of Organizational Delegation
     Delegation                                              Special Federal              Organization
       Option                     Designated                    Aviation                   Delegation
    Authorization              Alteration Station             Regulation 36               Authorization
       (DOA)                         (DAS)                     (SFAR 36)                     (ODA)

        1956                         1965                         1978                      2005-2009




      DOA allowed             DAS allowed
                                                          SFAR 36 allowed a        ODA combined these prior
      approved                manufacturers, repair
                                                          repair station, air      forms of delegated authority
      manufacturers to        stations, or air carriers
                                                          carrier, or commercial   under one program. The ODA
      conduct certification   to change aircraft or
                                                          operator to develop      transition was completed in
      functions on FAA’s      component designs
                                                          major repairs not        November 2009.
      behalf.                 and return them to
                                                          specifically approved
                              service on FAA’s
                                                          by FAA.
                              behalf.

Source: OIG analysis of various FAA documents

By implementing ODA, FAA has reduced the numbers of both organizational
delegations and individual designees.       According to FAA, managing an
organization is more efficient than managing the activity of many individual
designees. Table 1 details changes in the number of individual and organizational
designees since 2004.




7
    The ODA program is authorized in the Code of Federal Regulations, 14 C.F.R. Part 183, and FAA steps for
    approving ODA programs are governed by internal FAA policies.
                                                                                5


  Table 1. Change in the Number of Engineering and Manufacturing Designees
                 Individual Designees                May 2004   November 2010
       Designated Engineering Representatives         2,725         2,052
       Designated Manufacturing Inspection
                                                      1,249         1,181
       Representatives
       Designated Airworthiness Representatives        359           422
       TOTAL                                          4,333         3,655
               Organizational Designees              May 2004   November 2010
       Organizational Designated Airworthiness
                                                        86             0
       Representatives
       Designated Alteration Station                    31             0
       Delegation Option Authorization                   6             0
       Special Federal Aviation Regulations No. 36      12             0
       Organization Designation Authorization            0            84
       TOTAL                                           135            84
      Source: OIG analysis of FAA data

Risk Based Resource Targeting: In September 2007, as another way to leverage
limited FAA engineering resources, FAA implemented a policy to allow RBRT in
deciding which new engineering projects to review. RBRT is a process that
evaluates the risk associated with non-compliance with FAA regulations that
govern six “business processes” FAA oversees, including aircraft or aircraft
component design.

Using a series of assessment questions, FAA inspectors and engineers rate the
likelihood and severity of the risk of the organization failing to comply with FAA
regulations. This risk assessment is expressed as a number from 1 to 5 and
characterized as low, medium, or high. The higher the risk, the more direct FAA
oversight of the project or activity is recommended.

UNDER ODA, FAA HAS DELEGATED A SIGNIFICANT PORTION
OF ITS PERSONNEL SELECTION AUTHORITY TO PRIVATE
COMPANIES
FAA’s role in selecting unit members will gradually decline under the 2009 ODA
policy, as ODA holders can start selecting unit members without FAA’s input
2 years after receiving their approval. Also, we identified inconsistencies in how
ACOs interpret policy on unit member screening requirements and in how they
track unit members. Further, at one of the three manufacturers we visited, where
FAA allowed an ODA company to proceed with self-selection, problems arose
that demonstrate the challenges FAA may face as its role in unit member selection
declines.
                                                                                6


FAA’s Role in Selecting Personnel Who Perform Work on Its Behalf
Will Decline Over Time
Under the ODA program, FAA has significantly reduced its role in approving
individuals who perform work on its behalf by delegating this approval to private
companies (e.g., aircraft manufacturers). Under previous forms of organizational
delegation, FAA approved each appointment of personnel working for these
companies. Now, ODA company representatives select these personnel, known as
unit members, without FAA concurrence once the Agency approves the
company’s selection process. FAA’s ODA policy calls for a 2-year period before
the ODA holder can self-select unit members. However, it also permits FAA to
allow an ODA holder to proceed with self-selection sooner if the company has
demonstrated a capability to do so.

Implementation and Interpretation of FAA’s Role in the Unit Member
Selection Process Is Inconsistent Across FAA
FAA’s ACO personnel are not consistently pre-screening prospective unit
members’ performance histories and have different interpretations of how long to
continue pre-screening after the ODA holder is granted approval. We found this is
largely due to a lack of clear guidance on FAA’s ODA policy. 8 FAA engineers
and managers at the five ACOs we reviewed expressed confusion over the need
for pre-screening. First, only three of the five ACOs used FAA’s Designee
Information Network (DIN) to pre-screen unit members’ performance histories.
The DIN is a system for tracking all aircraft certification designees and
delegations so ACOs can look for any prior negative experience with the
individual in question and share the information with the ODA holder. Second,
some FAA program managers we met with asserted that pre-screening will
continue beyond the 2-year phase while FAA engineers in the field stated that pre-
screening is only required for the first 2 years. If proposed unit members are not
screened, an individual with a history of poor performance as a DER could be
authorized to perform critical aircraft certification functions.

Finally, FAA’s ACOs are not consistently tracking (i.e., collecting and
maintaining data on) unit member performance because there is no FAA policy
requiring them to do so. One ACO we visited tracks ODA unit members by name
in the DIN, while others did not track them at all. FAA Headquarters officials
state that they would not allow an individual designee with poor past performance
to serve as a designee or ODA unit member. However, if these ODA employees
are not tracked by name, it is unclear how FAA or the ODA will know if a
prospective unit member has a poor performance history. This lack of visibility
into the background of prospective unit members will further diminish FAA’s

8
    FAA Order 8100.15 contains the policy guidance for implementing ODA.
                                                                                     7


ability to conduct effective oversight of ODA companies and their unit member
selection process.

FAA’s Process Does Not Prevent ODAs from Selecting Unit Members
With Past Performance Problems
While FAA has the authority to remove unit members based on performance
issues, its guidance does not clearly define how individual offices should do so.
We identified instances in which FAA did not act quickly to remove questionable
unit members and appointed an individual to a key ODA position despite FAA
engineers' objections. FAA is losing the direct supervisory connection it
historically relied on with DERs; as a result, there is a greater risk that individuals
with a history of poor performance could continue to carry out critical aircraft
certification functions.

For example, FAA engineers cited troubling performance issues with a unit
member and insisted that the manufacturer remove his authority to perform work
under the ODA. FAA engineers were concerned with the unit member’s integrity
because he was advocating a position that directly opposed FAA rules on an
aircraft fuel system in favor of the manufacturer. Specifically, the unit member
determined that an aircraft type was in compliance with FAA fuel system rules but
ignored other language in the rules that, according to FAA engineers, made it clear
that the aircraft type did not comply. According to ODA regulations, when acting
as a representative of FAA, the ODA is required to perform in a manner consistent
with FAA policies, guidelines, and directives. When performing a delegated
function, designees are legally distinct from and act independent of the
organizations that employ them. The manufacturer disagreed with the FAA
engineers’ assertions but, after nearly a year of discussions, temporarily suspended
the unit member’s authority. During that year, the unit member continued to
approve certification data on FAA’s behalf. After our visit, FAA took action to
permanently remove the unit member.

In another instance, the manufacturer sought input from FAA on whom to appoint
to a key ODA position. However, according to FAA engineers, the person that
FAA managers ultimately approved was the one who received the most objections
from the FAA engineering staff.

The manufacturer also promoted a prior DER to a first-level ODA management
position despite a considerable record of negative feedback from FAA. FAA
performance evaluation records noted that he showed a consistent lack of integrity,
unsound judgment, and an uncooperative attitude towards FAA. FAA noted that
this person should never be considered for appointment as a representative or
authority in any assignment on behalf of FAA or within the company’s delegated
organization. Yet, according to FAA engineers we spoke with, the company
                                                                                                          8


hoped to eventually promote this individual to ODA Administrator—the company
employee with overall responsibility for the ODA and its unit members. 9

FAA HAS NOT ADDRESSED OVERSIGHT OR TRAINING
WEAKNESSES THAT COULD IMPACT THE ODA PROGRAM
Weaknesses in FAA’s oversight of past forms of delegated authority and in ODA
transition training could prevent successful ODA implementation. Our review
indicated that FAA audits 10 of prior forms of FAA’s delegated authority (before
ODA) revealed lapses in FAA’s initial review of engineering projects. Inadequate
ODA transition training resulted in FAA engineers being unprepared to carry out
their expanded oversight and enforcement responsibilities under ODA. As a
result, FAA engineers may not detect and enforce all regulatory noncompliances.

OIG Review of Prior FAA Audit Findings Show Lapses in Initial
Oversight of Aircraft Design and Modification
FAA’s past audits of manufacturers that held prior forms of delegated authority—
which are now ODA holders—identified instances of non-compliance with
regulations after these companies had certified aircraft components as compliant.
Our analysis of FAA audit findings from 2005 to 2008 disclosed 45 instances that
indicated FAA had not carefully reviewed the certification plan in advance. This
upfront review of the certification plan is a key component of FAA oversight of
engineering projects. For example:

     • A manufacturer did not have evidence that critical tests on a new aircraft
       engine component were ever performed.
     • A manufacturer’s certification plan did not indicate that it complied with
       specific aviation regulations governing design and construction of aircraft
       flight controls.
     • A manufacturer did not comply with regulations addressing the supplemental
       oxygen system for passengers and crew or emergency evacuation and escape
       routes.

These “after the fact” findings raise questions about the effectiveness of FAA’s
initial oversight of certification plans that the ODA holder submits. FAA’s ODA
policy requires engineers to perform one supervisory visit to companies they
oversee per year and a more comprehensive technical audit every 2 years.


9
     As of January 2011, this individual has not been appointed as the ODA Administrator.
10
     FAA completed the transition to ODA in November 2009. Since technical audits of ODA performance are
     conducted every 2 years, we did not have enough examples under ODA from which we could draw conclusions
     about the quality of FAA oversight.
                                                                                   9


Therefore, it can be a year or longer before FAA engineers perform additional
oversight through an annual visit or a technical audit.

FAA Has Not Adequately Prepared Its Engineers To Carry Out Their
Expanded Enforcement Responsibilities Under ODA
FAA has not ensured that its engineers are adequately trained to manage oversight
of the ODA program. Under ODA, FAA’s certification engineers have increased
capability to cite companies with violations of the Federal Aviation Regulations
when an ODA holder does not comply with its FAA-approved ODA procedures
manual. FAA engineers can now initiate an enforcement action for non-
compliance with the procedures manual, which could lead to civil penalties. This
is an important change from prior forms of delegated authority in which most non-
compliance issues related to the procedures manual were not regulatory violations.

However, FAA managers and engineers cited concerns to us that they never
received training or that FAA’s training course does not fully inform them of their
responsibilities under ODA. For example, engineers stated that they had no past
experience in compliance and enforcement activities and were unsure of their role
in any enforcement activities. One engineer even stated that he does not have any
compliance and enforcement responsibility under ODA. Also FAA’s training is
geared toward Flight Standards and manufacturing inspectors—not engineers, who
will be overseeing ODA holders. Engineers working within FAA’s new oversight
organization for large ODA holders with multiple certification locations also
expressed concerns. These engineers, as well as ACO engineers, told us that this
new oversight concept has been poorly communicated, leaving them uncertain
about their role.

RBRT HAS NOT BEEN EFFECTIVE IN ASSESSING
ENGINEERING PROJECT RISK
RBRT does not contain detailed data, such as accidents, to assess the risk of
noncompliances with regulations, and engineers do not accept the RBRT process
due to numerous technical difficulties. RBRT contains risk assessment formulas
based on experts’ opinions rather than an objective, automated analysis of accident
or incident data. As a result, RBRT has not been effective for measuring risk and
directing engineers’ oversight efforts to higher risk projects. Even if FAA is able
to successfully address these shortcomings, it still must train and prepare engineers
to effectively use RBRT.
                                                                                                                   10


RBRT Does Not Include Objective, Detailed Data
RBRT does not meet seven of nine risk assessment principles in FAA’s own risk
assessment policy (see table 2). 11 One principle is for the system to include all
relevant data available. However, there is no automated mechanism to leverage
data outside of the user’s potentially subjective knowledge. For example, RBRT
does not contain any data related to actual aviation accidents resulting from
manufacturing defects. A fully developed risk-based system would be able to
retrieve data directly from FAA’s own accident and incident databases.
                                Table 2. FAA Risk Assessment Principles
       FAA Risk Assessment                  RBRT Consistent
                                                                                          Comment
            Principles                       with Principle
Scientifically Objective                             No               RBRT in its current state is purely subjective
Unbiased                                            Yes               If the user is unbiased
Include All Relevant Data                                             No automated mechanism to leverage data
                                                     No
Available                                                             outside users’ personal knowledge
Use Default/Conservative                                              The same risk level is assigned to all
Assumptions Only if Situation                        No               regulations with no differentiation for those
Specific Info Not Available                                           with direct and substantial impact to safety
                                                                      An accurate assessment is not possible
Reasonably Detailed and
                                                     No               given that currently all regulations are
Accurate
                                                                      assigned the same risk rating
Address Both Severity and
                                                    Yes               none
Likelihood
                                                                      RBRT represents a quantitative processing
Quantitative to the Maximum
                                                     No               of subjective judgment; however, there is
Extent Possible
                                                                      little or no data-driven assessment capability
                                                                      The RBRT tool requires the same tedious
Flexible                                             No               data input for all projects regardless of
                                                                      relevance to safety
                                                                      Users are clearly not aware of assumptions
Assumptions Documented                               No
                                                                      fundamental to RBRT design
Source: OIG and consultant analysis of FAA data

Our analysis as well as that of our external consultant concluded that RBRT has
data shortcomings. In addition to our determination that RBRT is driven by
subject matter experts’ opinion rather than objective data, our consultant found
that RBRT risk assessments are of limited value in differentiating projects by
safety risk for resource targeting. For example, when originally introduced, the
system did not differentiate the potential safety impacts of noncompliance with
various regulations. 12 Therefore, RBRT treated the potential impact of non-
compliance with the regulation governing design of critical flight controls the
same as non-compliance with the regulation requiring installation of a no-smoking
decal. In another example, we reviewed a RBRT risk assessment that was rated as

11
     FAA Order 8040.4 defines FAA’s principles for risk assessment.
12
     According to FAA officials, the system that will be reintroduced in late FY 2011 will have this capability.
                                                                                                                      11


low risk by RBRT even though the company involved in the assessment was a
new company that would require a higher level of FAA oversight.

Further, FAA’s risk assessment policy calls for a plan that identifies specific
hazards that may be encountered in the overall certification process, analyzes the
likelihood of their occurrence, and determines their severity. However, RBRT
uses vague hazard statements rather than describing specific hazards that could
endanger an aircraft, such as sudden depressurization or lightning strike. 13 For
example, the hazard statement for aircraft design is, “If the [aircraft design]
process is not effectively completed, it may result in a non-compliant design of an
aviation product (aircraft, engine, or propeller) that may contribute to the cause of
a fatal accident.” While identifying all hazards that put an aircraft at risk is an
enormous task, it would greatly enhance RBRT’s effectiveness. Although FAA
has acknowledged that a risk assessment tool based upon objective data is superior
to the current subjective model, it does not expect to populate RBRT with more
objective data before late 2014 to 2015 at the earliest. According to FAA officials,
their plan to prioritize regulations in the next release of RBRT will better define
risks and hazards.

RBRT Has Experienced Significant Technical Difficulties
FAA did not ensure that the RBRT tool was fully functional before requiring its
use. FAA mandated the use of RBRT for all certification activity in August 2008;
however, the Agency poorly executed its deployment. Once it was in widespread
use by certification engineers, the RBRT tool experienced a number of technical
difficulties,   including     slow       system   functionality   and     system
          14
“freezes. ” Engineers stated it could take weeks to months to complete an RBRT
risk assessment. After being removed and reintroduced, RBRT continued to
experience technical difficulties, frustrating FAA engineers and causing FAA to
take the system back offline to undergo modifications. RBRT is currently not in
use, and FAA plans to reintroduce RBRT in late FY 2011. Until FAA deploys
RBRT, FAA engineers will continue to determine which projects to review using
only their subjective judgment. Figure 2 describes the timeline of RBRT’s
deployment in greater detail.




13
     FAA defines safety hazards as a condition, event, or circumstance that could lead to or contribute to an unplanned or
     an undesired event.
14
     According to FAA officials, the issues with slow functionality and system freezes were largely due to the lack of
     Information Technology (IT) capacity within FAA. Until this issue is resolved at the Agency level, IT programs will
     not run at optimum efficiency.
                                                                                                          12


                         Figure 2. Timeline of RBRT Deployment

              2008          Aug Sep      Oct      2009 Apr           Aug




         FAA mandates     FAA makes use                         FAA pilots         FAA again removes
                                             FAA removes
         use of RBRT      of RBRT optional                      RBRT in four       RBRT from use to
                                             RBRT from use
         for aircraft     due to technical                      offices.           make changes and
                                             due to technical
         certification    difficulties.                         Engineers report   reintroduce in 2011.
                                             problems.
         activity.                                              continued
                                                                difficulty.
Source: OIG analysis of FAA data

FAA Has Not Effectively Prepared Engineers To Use the RBRT Tool
FAA did not effectively train engineers and managers on RBRT, which resulted in
confusion among engineers we interviewed on how to implement RBRT. For
example, FAA’s intent is to allow low-risk projects to be approved without a
required data review—a concept known as “applicant showing only.” However,
FAA did not adequately train engineers on this concept. The initial training given
to engineers using RBRT consisted of briefing slides that did not fully address the
engineers’ concerns regarding the level of involvement expected for each risk
level. Engineers told us that they would never accept a project proposal without
reviewing data.

CONCLUSION
As the aviation industry continues to expand, FAA must continue to adapt its role
in oversight efforts, including the use of designees to perform work on its behalf.
While FAA’s effort to reduce the number of individual designees is a good step
toward efficiency, decreasing its involvement in selecting unit members is not
without risk. Unless FAA has the necessary training and tools in place to conduct
effective oversight, it cannot be assured that ODA organizations are fully
complying with FAA’s safety requirements or that unit members are qualified to
perform critical safety tasks. To best target limited oversight resources to the
highest risk projects, FAA must continue efforts to develop a sound risk
assessment process and inform personnel of how to utilize the system.

RECOMMENDATIONS
We recommend that FAA:

1. Revise its ODA policy to require a full 2-year transition for unit member self-
   selection.
                                                                                    13


2. Develop explicit guidance on the process to remove an ODA unit member in a
   timely fashion and require all ODA holders to include this standardized
   removal process in their approved ODA procedures manual.

3. Track unit member appointments in its Designee Information Network (DIN)
   database or another method in order to identify unit members with known
   performance issues and require engineers to cross-check names with the
   database beyond the first 2-year required timeframe.

4. Develop enforcement training and guidance that is pertinent to the unique
   requirements of the certification engineering discipline.

5. Improve the new oversight structure for large ODA holders by:

   a. developing training for FAA engineers and disseminating comprehensive
      procedures on the new oversight structure for large ODA holders.

   b. assessing the effectiveness of the new oversight structure before
      implementing it at other large ODA holders.

6. Improve the RBRT tool by:

   a. enhancing the risk assessment process so that it uses more automated data,
      such as accidents resulting from manufacturing defects, to accurately
      differentiate higher risk projects that likely pose the most safety risk.

   b. thoroughly testing and validating it to ensure that it is fully functional.

   c. ensuring that engineers are properly trained before requiring its use and
      relying upon its results.
                                                                                 14


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on May 3, 2011, and received its response
on June 1, 2011. FAA’s response is included in its entirety as an appendix to this
report. FAA concurred or partially concurred with all of our recommendations,
and its response meets the intent of most of them. However, we are concerned
with the timeframe for issuing new guidance on the process for approving and
tracking ODA unit members. Additionally, we are requesting that FAA expand its
planned actions for recommendation 3 and clarify information regarding its
actions planned for recommendation 5a.

Specifically, in response to recommendations 1, 2, and 3, FAA proposes to revise
its guidance regarding the ODA transition period, procedures for unit member
removal, and the requirement to cross-check names with FAA databases by
September 30, 2012. However, because these recommendations affect the core
tenets of the ODA program, we believe that FAA should issue interim guidance to
immediately enhance its oversight until the Agency is able to issue permanent
changes to its guidance. Additionally, for recommendation 3, FAA stated that it is
impractical to maintain all ODA unit members in an FAA database but agreed to
track unit members that have been removed due to performance-related issues.
However, as we reported, unit members can experience performance issues for a
prolonged period before removal. Given that poor performing unit members could
leave on their own before removal, FAA should expand its action by including
ODA unit members that are experiencing performance issues, but have not yet
been removed. Accordingly, we are requesting that FAA provide additional
planned actions and target dates for recommendations 1, 2, and 3 and consider
these recommendations open and unresolved.

For recommendation 5a, FAA states that it plans to revise its policy to clarify that
new offices are responsible for developing and conducting training for their staff.
However, the target date for this action is not clear. Additionally, given that FAA
is making individual offices responsible for enhancing training and procedures, we
request that the Agency clarify how it will ensure consistency in training and
procedures across these new offices. We are requesting that FAA likewise
provide additional planned actions and target dates for this recommendation and
consider it open and unresolved as well.

ACTIONS REQUIRED
FAA’s planned actions and target dates for recommendations 4, 5b, and 6 are
responsive, and we consider these recommendations resolved but open pending
completion of planned actions.      The remaining recommendations remain
                                                                               15


unresolved pending further action by FAA. We request that FAA provide, within
30 days of this report, additional actions to resolve recommendations 1, 2, and 3,
along with estimated target completion dates. Also, we request that FAA clarify
its target date and actions to enhance training and procedures for recommendation
5a. We appreciate the courtesies and cooperation of FAA representatives during
this audit. If you have any questions concerning this report, please call me at
(202) 366-0500 or Robin Koch, Program Director, at (404) 562-3770.

                                        #

cc: FAA Associate Administrator for Aviation Safety
    Director, Aircraft Certification Service
    Anthony Williams, AAE-001
    Martin Gertel, M-1
                                                                               16



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this audit in accordance with generally accepted government
auditing standards prescribed by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence that provides a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives. We conducted this review between August 2009 and May 2011. We
used the following scope and methodology in conducting this review.

To determine the role FAA plays in the selection process for individuals who
perform work under the Agency’s ODA program, assess the adequacy of FAA’s
oversight of the program, and evaluate the effectiveness of FAA’s RBRT program,
we performed audit work at 5 of 10 FAA Aircraft Certification Offices (ACOs)
and manufacturers for both small and transport category airplanes. Due to the
nature of Representative Lipinski’s request, we focused on delegated organizations
that approve new aircraft designs (type certification) and changes to existing
designs (supplemental type certificates).

We interviewed aircraft certification managers and engineers at FAA
Headquarters, the Mike Monroney Aeronautical Center in Oklahoma City, and
ACOs. We met with management officials responsible for administration of their
respective ODA programs at Bombardier-Learjet, Cessna Aircraft, and the Boeing
Company and interviewed individual unit members who perform work under each
company’s ODA. We analyzed unit member qualifications and ODA procedures
manuals for these companies. We obtained documents to analyze FAA’s policies
and procedures for ODA and RBRT, assessed the adequacy of completed RBRT
risk assessments, and reviewed the qualifications of ODA unit members.

To assist us in assessing the effectiveness of ODA and RBRT, we contracted with
TeamSAI, an air transportation consulting firm. TeamSAI assisted in our analysis
and participated in meetings with several ACOs and all three aircraft
manufacturers.

We met with the national certification engineering representative of the National
Air Traffic Controllers Association (NATCA) to obtain the labor union’s
perspectives on ODA and RBRT. We also engaged OIG legal and statistical
representatives for assistance in evaluating ODA and RBRT.




Exhibit A. Scope and Methodology
                                                                   17



EXHIBIT B. ENTITIES VISITED OR CONTACTED

Federal Aviation Administration
FAA Headquarters                               Washington, DC
Mike Monroney Aeronautical Center              Oklahoma City, OK
Wichita ACO                                    Wichita, KS
Chicago ACO                                    Chicago, IL
Atlanta ACO                                    Atlanta, GA
Los Angeles ACO                                Los Angeles, CA
Seattle ACO                                    Seattle, WA
Transport Airplane Directorate                 Seattle, WA

Aircraft Manufacturers
Cessna Aircraft                                Wichita, KS
Bombardier-Learjet                             Wichita, KS
The Boeing Company                             Seattle, WA

Other Organizations
National Air Traffic Controllers Association
(Aircraft Certification Engineers)             Chicago, IL




Exhibit B. Entities Visited or Contacted
                                                          18



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                 Title

  Robin Koch                           Program Director

  Marshall Jackson                     Project Manager

  Mark Perrill                         Senior Analyst

  Taniesha Snell                       Analyst

  Ruth Foyere                          Analyst

  Andrea Nossaman                      Writer/Editor




Exhibit C. Major Contributors to This Report
                                                                                         19



APPENDIX. AGENCY COMMENTS


                    Federal Aviation
                    Administration

Memorandum
Date:
To:              Jeffrey B. Guzzetti, Assistant Inspector General for Aviation and
                 Special Program Audits
From:            Clay Foushee, Director, Office of Audit and Evaluations, AAE-1
Subject:         OIG Final Report: FAA Needs to Strengthen its Risk Assessment and
                 Oversight Approach for Organization Designation Authorization and
                 Risk Based Resources Targeting Programs


While organizational delegation is not new to the FAA or the aviation industry, FAA is
continuing its efforts to strengthen the program, provide meaningful and consistent
oversight, and ensure it addresses the most important issues relating to aviation safety. In
the process of improving this program, FAA is seeking to make the most efficient use of
its resources, by redeploying assets previously devoted to less constructive oversight
activities, and apply a risk based framework for directing the activities of its Designees.
FAA recognizes that its efforts are a work in process, and has efforts underway that will
provide better training, ongoing program evaluations, and policy and information
technology (IT) improvements.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Revise its ODA policy to require a full 2-year transition for unit
member self selection.

FAA Response: Concur. The FAA will revise its guidance by September 30, 2012 to
require the organization management team (OMT) to review selections made in the first
two years or longer, if necessary. We will continue to communicate the role of the OMT
in performing oversight of an ODA’s unit member selection to ensure the processes are
being properly established and exercised.

Recommendation 2: Develop explicit guidance on the process to remove an ODA unit
member in a timely fashion and require all ODA holders to include this standardized
removal process in their approved ODA procedures manual.


Appendix. Agency Comments
                                                                                       20


FAA Response: Concur. Although the FAA believes that unit member (UM) removal
clearly falls under the established corrective action procedures, the FAA will add policy
and procedures to specifically address UM removal. This information will be included in
Change 1 to 8100.15A by September 30, 2012.

Recommendation 3: Track unit member appointments in its Designee Information
Network (DIN) database or another method in order to identify unit members with known
performance issues and require engineers to cross-check names with the database beyond
the first 2-year required timeframe.

FAA Response: Concur in part. It is impractical for the FAA to maintain all ODA UM
names in an FAA database. However, since an ODA holder is responsible for their unit
member management and we already require ODA holders to report the names of UMs
removed for performance reasons that constitute misconduct, we could track only those
unit members who have been removed due to performance-related issues. We propose to
issue policy that will require these removed UMs to be tracked in DIN so that they may
be precluded from future designee or UM selection. Order 8100.15 currently requires
that proposed UMs are cross-checked with existing FAA databases beyond the initial 2-
year timeframe. This is being clarified in Order 8100.15A. The proposed change will be
included in Change 1 to 8100.15A by September 30, 2012.

Recommendation 4: Develop enforcement training and guidance that is pertinent to the
unique requirements of the certification engineering discipline.

FAA Response: Concur. Aviation Safety (AVS) will ensure that pertinent portions of
the existing FAA Academy Compliance & Enforcement course address ODA certificate
management. AVS will also provide more information in the designee management
course lesson on ODA oversight by December 31, 2012.

Recommendation 5: Improve the new oversight structure for large ODA holders by:
    A. developing training for FAA engineers and disseminating comprehensive
    procedures on the new oversight structure for large ODA holders.
    B. assessing the effectiveness of the new oversight structure before implementing it
    at other large ODA holders.

FAA Response: Concur. The establishment of the Boeing Aviation Safety Oversight
Office (BASOO) and Gulfstream Aviation Safety Oversight Office (GASOO) constitutes
a new organizational structure, not a new oversight structure. Oversight roles and
processes remain unchanged but may be divided among more staff members in these
offices. AVS will revise its policy to clarify that these new offices are responsible for
developing and conducting training for their staff and the people that interact with them.
In addition, AVS will develop guidance defining best practices for proper oversight of
ODAs by June 2012. We will then assess the effectiveness of the existing oversight
offices (BASOO and GASOO) against this guidance before we implement any future
organizational changes of a similar nature. We will have a plan developed to assess the




Appendix. Agency Comments
                                                                                        21


existing oversight offices by September 2012. We will then perform the assessment and
document any proposed changes, to policy or structure, in fiscal year (FY) 2013.

Recommendation 6: Improve the RBRT tool by:
    A. Enhancing the risk assessment process so that it uses more automated data, such
    as accidents resulting from manufacturing defects, to accurately differentiate higher
    risk projects that likely pose the most safety risk.
    B. Thoroughly testing and validating it to ensure that it is fully functional.
    C. Ensuring that engineers are properly trained before requiring its use and relying
    upon its results.

FAA Response to 6.A: Concur. It has been the intention of the FAA to continuously
improve the RBRT process. The implementation of the AVS Safety Management
System (SMS) will establish a methodology to collect appropriate data to transition from
a qualitative to a quantitative risk management system. There are several process
initiatives within AVS SMS to provide data to support RBRT in the future. To get to that
point though, we also need to begin using RBRT in a qualitative form to standardize the
risks on which our workforce should focus. We have revised the RBRT tool to use the
regulation prioritization data that differentiates and prioritizes the severity of all the
regulations. This will help the workforce better use the tool to focus on specific
regulations that are higher risk. New process and IT tools being developed to support the
transition of RBRT to a fully quantitative process include All Lessons Learned (accident
database) expected in mid-FY 2012; Aircraft Certification Audit Information System,
expected by the end of FY 2012; the Engineering Design Approval process, expected in
FY 2013; the Designee Management System, expected by the end of FY 2013;
Manufacturers SMS; and potential rulemaking for Part 21 SMS beginning in FY 2013.
All of these processes currently under development will collect the objective data needed
to support RBRT in the future.

FAA Response to 6.B: Concur. The new IT solution is currently in the user-acceptance
testing phase. This new solution is being tested more vigorously than the last, based on
the lessons learned from the prototype tool. Validation of the process has occurred
multiple times in the past four years. The process was initially challenged by a large user
community, after which several changes were made. The improved process and tool
were then used in a prototype environment, during which we found additional changes
and learned about the IT limitations. We will continue to take full advantage of testing
and validation practices, as necessary, to deploy future data tools mentioned in 6A, and
anticipate implementation by September 30, 2014. Additionally, there are targeted
reviews scheduled by the process owner to review the user feedback being collected
along with management recommendations, which will drive continuous improvement of
the tool.

FAA Response to 6.C: Concur. New training is being developed to provide the work
force with the necessary knowledge to use the RBRT IT tool. This training will take
many forms. First, we are developing a computer-based learning package that will be
available to all employees. This computer-based package will be available two months



Appendix. Agency Comments
                                                                                        22


before planned implementation to allow adequate time for the work force to access the
training. There is also a plan to conduct an orientation presentation to all field offices,
detailing the process and demonstrating the IT tool. These orientations will take place in
the month before projected launch, so as to make sure the information on how to interface
with and use the tool stays fresh in the minds of the field employees. To support the use
of RBRT, we will also be issuing policy and Quality Management System work
instructions, detailing when and how to use the tool for those who may have missed the
orientation sessions. This information will be published and have an effective date no
later than September 30, 2011. Additionally, AVS has been conducting a “road show”
for the workforce on our discretionary function authority and what it means. This
training is also in support of RBRT in that it lays the foundation for the management
options RBRT provides. These discretionary function briefings are scheduled to be
completed by December 31, 2011.




Appendix. Agency Comments
